APPENDIX
Oneida Judiciary (tribal trial court).
Arietta J. Kurowski (Petitioner) v. The
Estate of Kenneth H. Kurowski,
(Defendant). Case No. 18-TC-004. Date
of Entry, May 30, 2018 for Order
Denying Declaratory Judgment.
A complaint was filed by Petitioner February 6,
2018. A Pre-Trial hearing was held on March 9, 2018.
At the hearing, the Petitioner added clarity to the
caption: Defendant. On March 5, 2018, Norma
Kurowski filed answer to the complaint. The Court
entered Norma Kurowski's response on the record.
The Petitioner was not provided a copy of the
Defendant's answer to the complaint; therefore the
court allotted time for both parties to prepare a
response. On April 30, 2018, the court held a
Jurisdictional hearing.
The Petitioner's son, Daniel Hawk was present
at the March 9, 2018 hearing, and requested to assist
the Petitioner; she is disabled and hearing impaired.
The Court granted Mr. Hawk a one-time waiver to
assist and/or represent the Petitioner, in order to
continue as an advocate he is required to be approved
to practice in the Judiciary prior to any further
hearings. Mr. Hawk did not complete the approval to
practice process; therefore, he was not allowed to
represent the Petitioner at the April 3 0, 2018
Jurisdictional hearing.
A. Analysis

19

The Petitioner seeks a Declaratory Judgment;
Trial Court Judgment awarding child support arrears
for Donna Kurowski-Galvan, Debra Kurowski, and
Dani-el Hawk against The Estate-of Kenneth H.
Kurowski. In regards to a declaratory judgment, the
Petitioner has the burden to meet both declaratory
judgment
and
subject
matter
jurisdiction
requirements identified in Chapter 801.5-2.
A declaratory judgment is sought to determine
the validity of a Tribal law. In this case, the Petitioner
cites numerous laws or cases outside the Oneida
Nation, but fails to identify specific Tribal law or laws
that were violated, resulting in interference,
impairment or threats of the legal rights and
privileges of the Petitioner. Further burden is on the
Petitioner to prove any Oneida Nation laws violate a
Constitutional provision or that the law was adopted
without following law making procedures required
under Tribal law. The Petitioner did not prove any
Oneida Nation law violates Constitutional provisions
or was adopted without compliance with law making
procedures required under Tribal law.
The Trial Court shall have subject matter
jurisdiction over cases and controversies arising under
the following: Where an agency has denied a person a
benefit or has provided a person with an incorrect or
incomplete benefit, or has imposed a fine on a person,
and the person has exhausted the process provided by
law, if any, for review of the action.
The Petitioner has brought this suit forward
against The Estate of Kenneth H. Kurowski. In
establishing subject matter jurisdiction, 801.5-1 ( c)
requires that an agency has denied a person a benefit
20

or has provided a person with an incorrect or
incomplete benefit, or has imposed a fine on a person
... Therefore it requires an agency to take some form
of action. Based on the definition of "agency" outlined
in 801.3, The Estate of Kenneth H. Kurowski does not
meet any of the criteria identified in the definition
"agency" outlined in 801.3. Therefore The Estate of
Kenneth H. Kurowski is not an agency and subject
matter jurisdiction is not established under 801.5-2
(c).

The Trial Court shall have subject matter
jurisdiction over cases and controversies arising under
the following: Where a disagreement over the terms,
interpretation or enforcement of a written contract.
The Petitioner has not produced a written contract in
regards to fulfilling this requirement; therefore,
disagreements over the terms, interpretation or
enforcement are moot.
The Trial Court shall have subject matter
jurisdiction over cases and controversies arising under
the following: Small claims actions where the amount
in controversy is five thousand ($5,000) or less.
In the complaint, the Petitioner requests the Trial
Court to award $123,120.58 in monetary damages to
the Petitioner for child support arrears. This far
exceeds the maximum amount of $5,000.00 for small
claims and must be denied for these reasons.
B. Conclusions of Law
The Petitioner did not meet the Declaratory
Judgment requirements, nor did the Petitioner

21

establish the Trial Court has Subject
Jurisdiction to hear this complaint.
ORDER the
Judgment is denied.

request

for

a

Matter

Declaratory

Oneida Judiciary (tribal trial court).
Arietta J. Kurowski (Petitioner) v.
Norma J. Kurowski, (Defendant). Case
No. 18-TC-005. Date of Entry, May 30,
2018 for Order Dismissed with
Prejudice.
A complaint was filed by Petitioner on February
12, 2018. On March 5, 2018, Norma Kurowski filed an
answer to the complaint and Motion to Dismiss. A PreTrial hearing was held on March 12, 2018. The
Petitioner was not provided a copy of the Defendant's
answer to the complaint; therefore the court allotted
time for both parties to prepare a response. The Court
received the Petitioner's response to Defendant's
answer. The Court received the Defendant's reply to
the Petitioner's response. A Jurisdictional hearing
was scheduled for April 26, 2018 at 1 :30 p.m. CST.
On March 23, 2018, the Defendant filed a
motion to change the hearing date and time, due to a
scheduling conflict, the court granted the Defendant's
administrative request. On April 30, 2018, the court
held a Jurisdictional hearing.
The Court granted Daniel Hawk and Attorney
Curtis Clark a one-time waiver to represent the
Petitioner and the Defendant at the March 12, 2018
Pre-Trail hearing. Neither Mr. Hawk nor Attorney
22

Clark is approved to practice as an Advocate or
Attorney in the Judiciary. In order to continue as
Advocate or Attorney, both are required to be
approved to practice in the Judiciary prior to any
further hearings. Attorney Clark was approved to
practice within the Judiciary by the April 30, 2018
Jurisdictional hearing. Mr. Hawk did not complete the
approval to practice process; therefore, he was not
allowed to represent the Petitioner at the April 30,
2018 Jurisdictional hearing.
A. Analysis
The burden is on the Petitioner to meet subject
matter jurisdiction requirements identified in
Chapter 801.5-2. The Petitioner seeks a Trial Court
ruling, judgment and other corrective actions. The
Petitioner identified in her complaint as subject
matter jurisdiction: Other Tribal Law - Fraud, but
failed to identify a specific Tribal Law with regard to
fraud. Therefore, the Court looked at 801.5-2 (c) when
evaluating fraud and subject matter jurisdiction.
The Trial Court shall have subject matter
jurisdiction over cases and controversies arising under
the following: Where an agency has denied a person a
benefit or has provided a person with an incorrect or
incomplete benefit, or has imposed a fine on a person,
and the person has exhausted the process provided by
law, if any, for review of the action.
The Petitioner has brought this suit forward
against Norma Kurowski. 801.5-2 (c) requires that an
agency has denied a person a benefit or has provided
a person with an incorrect or incomplete benefit, or
23

has imposed a fine on a person ... Therefore it requires
an agency to take some form of action. Based on the
definition of "agency" outlined in 801.3, Norma
Kurowski does not meet any of the criteria identified
in the definition "agency". Therefore Norma Kurowski
is not an agency and subject matter jurisdiction • is not
established under 801.5-2 (c).
The Trial Court shall have subject matter
jurisdiction over cases and controversies arising under
the following: where a disagreement over the terms,
interpretation or enforcement of a written contract.
The Petitioner has not produced a written
contract in regards to fulfilling the requirements in
801.5-2 ( d); therefore, disagreements over the terms,
interpretation or enforcement are moot.
The Trial Court shall have subject matter
jurisdiction over cases and controversies arising under
the following: Small claims actions where the amount
in controversy is five thousand ($5,000) or less.
In the complaint, the Petitioner requests a monetary
judgment of $100,000.00 to the Petitioner for illegally
taking Oneida Nation decedent death precedes that
otherwise allegedly legally belong to the Petitioner.
This far exceeds the maximum amount of $5,000.00
for small claims and must be denied for these reasons.
The Defendant is requesting the court to
address an alleged improper filing Lis Pendens,
"Notice of Lis Pendens and Notice of Action Pending".
This Court will not address any filings in another
Jurisdiction.
B. Conclusions of Law

24

The Petitioner did not establish the Trial Court
has Subject Matter Jurisdiction to hear this
complaint.
ORDER Case no. 18-TC-005 is dismissed with
prejudice.

Oneida Judiciary (tribal trial court).
Arietta J. Kurowski (Petitioner) v.
Norma J. Kurowski, (Defendant). Case
No. 18-TC-007. Date of Entry, May 30,
2018 for Order Dismissed with
Prejudice.
A complaint was filed by Petitioner February
28, 2018. On March 23, 2018, Norma Kurowski filed
answer to the complaint. A Pre-Trial hearing was held
on March 29, 2018. The Court allotted time for both
parties to prepare a response. The Court received the
Petitioner's response to the Defendant's answer. The
Court received the Defendant's reply to the
Petitioner's response. On April 30, 2018, the court
held a Jurisdictional hearing.
The Court granted Daniel Hawk and Attorney
Curtis Clark a one-time waiver to represent the
Petitioner and the Defendant at the March 29, 2018
Pre-Trail hearing. Neither Mr. Hawk nor Attorney
Clark is approved to practice as an Advocate or
Attorney in the Judiciary. In order to continue as
Advocate or Attorney, both are required to be
approved to practice in the Judiciary prior to any
further hearings. Attorney Clark was approved to
practice within the Judiciary by the April 30, 2018
25

Jurisdictional hearing. Daniel Hawk did not complete
the approval to practice process; therefore, he was not
allowed to represent the Petitioner at the April 30,
2018 Jurisdictional hearing.
A. Analysis
The Petitioner seeks a Trial Court ruling for the
following corrective actions:
1.
Return possession of husband's remains
to Petitioner,
2.
Return possession of military articles
such as medals, flag, commendations, clothing
and weapons to Petitioner,
3.
Return possession of hunting and fishing
articles such as commemorative rifles, hand
guns, shot guns, and fishing rods and reels to
Petitioner.
In summary, the Petitioner is seeking the
return of human remains, military, hunting and
fishing articles. However, personal jurisdiction over
the Defendant must be established in order for the
Court to go forward with this case. The burden is on
the Petitioner to prove jurisdiction, specifically, the
personal and territorial jurisdiction requirements
identified in Chapter 801.5-3 and 801.5-4. As a basis
for jurisdiction, the Petitioner has claimed in her
complaint that:
1.
The filing of the Death Certificate of
Kenneth H. Kurowski created a consensual •
26

relationship with the Oneida Nation because
Kenneth H. Kurowski was an enrolled Oneida
Nation member.
2.
The Defendant entered into illegal
funeral arrangements for Kenneth H.
Kurowski creating a consensual relationship
with the Oneida Nation and depriving the
Petitioner of Native American funerary rites in
accordance with: Other Tribal Law - American
Indian Religious Freedom Act, 42 U.S.C. §1996
Pub. L. 95-341; and
3.
The Defendant entered into a legal
executorship of the Oneida Nation citizen's
estate through probate, thereby, creating a
consensual relationship with the Oneida
Nation.
The basis for jurisdiction is addressed below.
B. Certificate of Death
The Petitioner failed to show how the filing of
the Death Certificate of Kenneth H. Kurowski by the
Defendant would create a consensual relationship
under 801.5-4 (b)(1). The decedent was domiciled in
Abbeville County, in the State of South Carolina. The
Certificate of Death for Kenneth H. Kurowski was
filed with the Department of Health and
Environmental Control in the State of South Carolina.
Furthermore, the Trial Court lacks Territorial
Jurisdiction under 801.5-3 which states:

27

The territorial jurisdiction of the Trial Court
shall extend to the Reservation and all lands
held in trust by the United States for the
benefit of the Tribe within the State of
Wisconsin.
In order for the Trial Court to have territorial
jurisdiction, the complaint regarding a fraudulent
death certificate requires the matter to geographically
fall within the exterior boundaries of the Oneida
Nation or within land held in trust by the United
States for the benefit of the Tribe within the State of
Wisconsin. In this case, neither exists. Here, the death
certificate was filed in the State of South Carolina
where the decedent was domiciled. The Oneida
Judiciary's Trial Court does not possess Personal or
Territorial Jurisdiction to hear this complaint.
C. Funerary Rites & Arrangements
The Petitioner asserts the Defendant entered
into illegal funeral arrangements for Kenneth H.
Kurowski, depriving the Petitioner of Native
American funerary rites in accordance to the
American Indian Religious Freedom Act, 42 U.S.C. §
1996 Pub. L. 95-341. Further, the asserted illegal
actions of the Defendant translate into a consensual
relationship with the Oneida Nation. This act states:
On and after August 11, 1978, it shall be the
policy of the United States to protect and
preserve for American Indians their inherent
right of freedom to believe, express, and
28

exercise the traditional religions of the
American Indian, Eskimo, Aleut, and Native
Hawaiians, including but not limited to access
to sites, use ■ and possession of sacred objects,
and the freedom to worship through
ceremonials and traditional rites.
The Petitioner has not identified how AIRFA,
42 U.S.C. §1996 Pub. L. 95-341 support the claim the
Defendant entered into illegal funeral arrangements
for Kenneth H. Kurowski, violating said funerary
rites. Nor did the Petitioner identify how the Act
would give this Court personal jurisdiction over the
Defendant. But, what is clear, the Defendant is the
appointed Personal Representative for the Estate of
Kenneth
H.
Kurowski.
As
the
Personal
Representative or Executor, Norma Kurowski has the
authority to make decisions on behalf of the decedent
in all specified matters.
D. Probate
The Petitioner asserts the Defendant entered
into a legal executorship of the Oneida Nation citizen's
estate through probate. However, the duties of an
executor do not amount to a consensual relationship
as required in 801.5-4 (b )(1 ), when the probate is not
administered by an Oneida Nation court or other
entity and that occurs within the exterior boundaries
of the Oneida Nation reservation. The decedent was
domiciled in Abbeville County, in the State of South
Carolina. The Defendant filed and opened the Estate
of Kenneth H. Kurowski in Abbeville County, in the
29
/

r

j

State of South Carolina. The Defendant has been
appointed by the State of South Carolina, Abbeville
County Probate Court as Personal Representative to
the Estate of Kenneth H. Kurowski. Therefore the
Petitioner has not identified how this Court would
have personal jurisdiction based on probate being
executed in another State. Furthermore, 801.5-3
requires the following in order for the Trial Court to
have Territorial Jurisdiction to hear this complaint:
The territorial jurisdiction of the Trial Court
shall extend to the Reservation and all lands
held in trust by the United States for the
benefit of the Tribe within the State of
Wisconsin.
The Petitioner is required to prove this alleged
illegal action geographically falls within the exterior
boundaries of the Oneida Nation or on land held into
trust by the United States for the benefit of the tribe
within the State of Wisconsin. Neither exists, the Trial
Court does not have Territorial Jurisdiction to hear
this complaint.
E. Conclusions of Law
The Petitioner did not establish the Trial Court
has Personal or Territorial Jurisdiction to hear this
complaint.
ORDER 1. Case no. 18-TC-007 is dismissed
with prejudice.

30

Oneida Judiciary (tribal appellate
court). Arietta J. Kurowski (Appellant)
v. The Estate of Kenneth H. Kurowski
and Norma Kurowski, (Respondents).
Case Nos. 18-AC-004, 18-AC-005, and
18-AC-006. Date of Entry, January 17,
2019 for Order, Decisions of the Trial
Court are Affirmed.
Arietta This matter has come before Appellate
Judges, Sharon House and Chad Hendricks, and Chief
Appellate Judge, Gerald L. Hill.
A. Jurisdiction
The Court of Appeals has jurisdiction over this
matter per §801.8-2(a)(2) oft4e Oneida Judiciary Law
which gives this Court exclusive jutisdfoti6n to review
appeals of agency: and administrative decisions.
B. Introduction
This matter was accepted by this Court on July
18, 2018 and on its own motion consolidated the three
(3) appeals from the Oneida Trial Court (hereinafter
"TC"), as 18-AC-004, 18-AC-005 and 18-AC-006. All
three (3) cases were decided on the same date, May 30,
2018, and filed here separately.
18-AC-004
involves
Arietta
Kurowski's
(hereinafter "A. Kurowski") request that Kenneth
31

Kurowski's (hereinafter "K. Kurowski") estate pay for
child support arrearages, which the TC denied due to
lack of jurisdiction.
In 18-AC-005 A. Kurowski alleged that K.
Kurowski's
second
wife,
Norma
Kurowski,
fraudulently presented a death certificate issued in
another jurisdiction and an invalid marriage license
based upon alleged bigamy which she then used to
become the Personal Representative of K. Kurowski.
The TC held that there was a lack of personal and
subject matter jurisdiction in its decision to dismiss,
with prejudice.
In 18-AC-006 A. Kurowski asserted the
American Indian Religious Freedom Act as authority
to claim personal effects, service awards, and funerary
ashes of K. Kurowski. It was acknowledged that K.
Kurowski and A. Kurowski were Oneida Indians, but
the TC • found that the complaint failed to show how
this applied to the case or established jurisdiction. The
TC dismissed this case with prejudice for lack of
subject matter jurisdiction.
Upon consolidation, A. Kurowski motioned the
Court for a refund of two (2) of the appellate filing fees
which were denied because filing fees are not
refundable. On October 10, 2018, the Court denied A.
Kurowski's motion for peacemaking because the TC's
decisions being reviewed were for dismissal due to
lack of jurisdiction. Peacemaking is based upon the
parties' voluntary agreement to the process of
negotiating the various issues being litigated.
However, jurisdiction is not a negotiable issue.
Dan
Hawk
(hereinafter
"Hawk")
has
designated himself as an "agent" for A. Kurowski.
32

However; he is not admitted to practice as an advocate
for A. Kurowski in this Court. This appellate review is
confined to the original three (3) cases which as stated
above, the TC dismissed for lack of jurisdiction. The
decision of the TC is affirmed.
C. Issue
Whether the TC erred in its decision to dismiss
each case for lack of appropriate jurisdiction?
D. Analysis
In all three cases, A. Kurowski claimed she was
denied due process and there were errors by the TC.
A. Kurowski cited Burrell v. Armijo, 456 F.3d 1159
(2006) case several times as authority for establishing
personal jurisdiction over Norma Kurowski. However,
the TC found that there was no corresponding
connection to any Oneida Nation laws that would have
made Burrell applicable to the cases. Thus, the TC
correctly ruled that the authority of the Burrell case
was without foundation and did not apply to any of
these cases.
This Court has reiterated on several occasions
that it defers to the findings of the lower court in the
absence clear error. Oneida Judiciary Law §801.8-3 Scope of Appellate Review, states that "the Court of
Appeals shall not substitute its judgment or wisdom
of the credibility of testimony or the weight of evidence
for that of the original hearing body." The right of the
appellant to appeal based on §801.8-4(a), (b), (c), and
(d) has a low threshold. However, the allegations in
33

the Notice of Appeal must still be substantiated by the
parties' briefs to prevail. The burden of persuasion is
on the appellant. Here that burden has not been met.
In all three cases, the TC consistently found
that no laws of the Oneida Nation support the notion
that the TC has jurisdiction. Further, A. Kurowski
failed to provide any legal authority or reasoning upon
which to attach Oneida jurisdiction to any of the three
(3) cases.
For the reasons set forth here, this Court
affirms each of the decisions of the TC appealed in the
consolidated cases; 18-AC-004, 18-AC-005, and 18AC-006. We will not address the two (2) actions in lis
pendens filed by Hawk in South Carolina which
should be addressed there in light of our affirmation
of the TC's findings and orders of dismissal in each of
these consolidated appeals for lack of the required
jurisdiction.
Pursuant to the authority of §801.8-2(6 ), this
Decision of the Appellate Court is final.
E. Order
Pursuant to the Rules of Appellate Procedure,
§801.8-2(b), §805.9-2, §805.9-3, §805.10-4, and
§805.13-2(a), this Court hereby affirms the decisions
of the Trial Court in dismissing the three (3) actions,
which we have consolidated, as identified in the
caption.
By the authority vested in the Oneida
Judiciary, Court of Appeals, in Oneida General Tribal
Council Resolutions 01-07-13-B and 3-19-17-A, the
decisions of the Trial Court are AFFIRMED. Date this
17th day of January. 2019, in the matter of Case
34

r

Numbers. 18-AC-004, 1 8-AC-005 and 18-AC-006,
Kurowski v. Estate of Kenneth H Kurowski. Et al.

Eastern District Wisconsin (federal
court). Arietta J. Kurowski
(Plaintiff/Appellant) v. Estate of
Kenneth H Kurowski and Norma
Kurowski Schoonober
(Defendants/Appellees). Case No. 1:19cv-00274-WCG. Date of Entry, February
25, 2019 for Lack of Jurisdiction to
review a decision of the Oneida Court of
Appeals and Dismissal.
Arietta Kurowski has filed a Notice of Appeal
from a decision of the Court of Appeals of the Oneida
Judiciary affirming a trial court's judgment
dismissing her actions. This court lacks jurisdiction
over the Oneida judiciary. Accordingly, this court
cannot review a decision of the Oneida Court of
Appeals. This action is, therefore, dismissed.
SO ORDERED this 22nd day of February 2019.

35

f

United States Court of Appeals for the
Seventh Circuit (federal court). Arietta
J. Kurowski (Plaintiff-Appellant) v.
Estate of Kenneth H Kurowski, et al.,
(Defendants/Appellees). Case Nos. 191391 & 19-1982. Date of Entry, June 3,
2019 for Final Judgment.
We conclude that the district court had no
jurisdiction to rule on the May 14 motion to
substitute parties, because by that time the case was
lodged in this court. We therefore resolve appeal No.
19-1982 by VACATING the May 16 order of the
district court. As
we indicated earlier, we AFFIRM the district court’s
judgment in No. 19-1391.
The above is in accordance with the decision of this
court entered on this date.

36

